NO. 20-942
Christopher L. Buie
Petitioner,
vs.
U.S. Department of Labor, Administrative Review Board
Respondent.
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Eighth Circuit
PROOF OF SERVICE
I, Christopher L. Buie, verify under penalty of perjury that the foregoing is true and
correct:
Under the Supreme Court's April 15, 2020 order, and the Court Clerk’s guidance for that
order, dated November 13, 2020,1 served the following person, by electronic service and by U.S.
mail, postage prepaid, with a copy of the Petition for Rehearing on this 13 th day of March 2021.
Elizabeth B. Prelogar
Acting Solicitor General
Room 5616, Department of Justice
950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001
SupremeCtBriefs@U SDOJ. gov

Christopher L. Buie
1045 Park Ave Apt 6
Omaha, Ne 68105
(4020 345-1501
Jidao70@hotmail.com

